U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 19, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. California, No. 19-532
Dear Mr. Harris:
Respondent's brief in opposition in the above-captioned case is scheduled to be filed on or
before December 23, 2019. Pursuant to Supreme Court Rule 15.5, petitioner expressly waives the
14-day waiting period for distribution of this case to the Court. We respectfully request that the
Court distribute the case on its next distribution date for paid cases, which we understand is
December 23, 2019, so that the petition may be considered at the January 10, 2020 conference.
Sincerely,
Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0532
USA
CALIFORNIA, ET AL.

AIMEE ALTHENA FEINB ERG
CALIFORNIA DEPARTMENTY OF JUSTICE
13001 STREET
SACRAMENTO, CA 95814
916-210-6003
AIMEE.FEINBERG@DOJ.CA.GOV
CHRISTOPHER J. HAJEC
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVENUE, NW
SUITE 335
WASHINGTON, DC 20001
202-232-5590
CHAJEC@IRLI.ORG
CHRISTOPHER J. HAVJEC
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVE., N.W
SUITE 335
WASHINGTON, DC 20001
202-232-5590
CHAJEC@IRLI.ORG
KIMBERLY S. HERMANN
SOUTHEASTERN LEGAL FOUNDATION
560 W. CROSSVILLE ROAD
SUITE 104
ROS WELL, GA 30075-7509
770-977-2131
KHERMANN@SOUTHEASTERNLEGAL.ORG

KURT R. HILBERT
THE HILBERT LAW FIRM, LLC
205 NORCROSS ST.
ROS WELL , GA 30075
770-551-9310
KHILBERT@HILBERTLAW.COM
LAWRENCE J. JOSEPH
1250 CONNECTICUT AVE., NW
SUITE 700-lA
WASHiNGTON, DC 20036
202-355-9452
LJ@LARRYJOSEPH.COM
KALLEY S. WILLIS
IMMIGRATION REFORM LAW INSTITUTE
25 MASSACHUSETTS AVENUE NW
SUITE 335
WASHINGTON, DC 20001
202-232-5590
KWILLIS@IRLI.ORG

